No. _______

IN THE
SUPREME COURT OF THE UNITED STATES
___________
ANDREW REY YBABEN,
Petitioner
v.
UNITED STATES OF AMERICA
Respondent
___________
APPENDIX
___________

INDEX TO APPENDICES
Appendix A Judgment and Opinion of Fifth Circuit
Appendix B Judgment and Sentence of the United States District Court for the
Northern District of Texas

APPENDIX A

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 20-10007
Summary Calendar

FILED
June 15, 2020
Lyle W. Cayce
Clerk

UNITED STATES OF AMERICA,
Plaintiff-Appellee
v.
ANDREW REY YBABEN,
Defendant-Appellant
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 5:19-CR-89-1
Before DAVIS, SMITH, and HIGGINSON, Circuit Judges.
PER CURIAM: *
Andrew Rey Ybaben appeals his conviction and 300-month sentence for
production of child pornography, a violation of 18 U.S.C. § 2251(a). Citing
Bond v. United States, 572 U.S. 844 (2014), Ybaben argues that the factual
basis was insufficient to support his guilty plea because § 2251(a) should be
construed as requiring the Government to prove the offense caused the
materials to move in interstate commerce or, at least, that the materials moved

Pursuant to 5TH CIR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
CIR. R. 47.5.4.
*

No. 20-10007
in interstate commerce recently. He further contends that the district court
abused its discretion in overruling his objection to the condition of supervised
release requiring him to participate in sex offender treatment that may include
plethysmograph testing.

Ybaben acknowledges that his arguments are

foreclosed, but he raises the issues to preserve them for further review. The
Government has filed an unopposed motion for summary affirmance, agreeing
that the issues are foreclosed.
Summary affirmance is appropriate if “the position of one of the parties
is clearly right as a matter of law so that there can be no substantial question
as to the outcome of the case.” Groendyke Transp., Inc. v. Davis, 406 F.2d 1158,
1162 (5th Cir. 1969). The parties are correct that Ybaben’s challenge to his
factual basis is foreclosed. See United States v. Bailey, 924 F.3d 1289, 1290
(5th Cir.), cert. denied, 140 S. Ct. 411 (2019); United States v. Dickson, 632 F.3d
186, 192 (5th Cir. 2011); United States v. Kallestad, 236 F.3d 225 (5th Cir.
2000). The parties are also correct that United States v. Ellis, 720 F.3d 220,
227 (5th Cir. 2013), forecloses Ybaben’s challenge to the condition of his
supervised release.

Accordingly, the Government’s motion for summary

affirmance is GRANTED, the Government’s alternative motion for an
extension of time to file a brief is DENIED, and the judgment of the district
court is AFFIRMED.

2

APPENDIX B

Case 5:19-cr-00089-H-BQ Document 47 Filed 12/20/19

Page 1 of 8 PageID 127

UNrrEo Srerps Drsrrucr Counr
NORTHERN DISTRICT OF TEXAS LUBBOCK DIVISTON

LINITED STATES OF AMERICA

5

I

JUDGMENT IN A CRIMINAL

CASF],

5

ANDREW REYYBABEN

5

Case Number: 5: 19-CR-00089-H-BQ(1)

5

USM Number: 59043-177
David E Sloan

5

I

THE DEFENDANT:

x
tr
tr
tr

pleaded guilty to count(s)

Defendant's Attomey

I ofthe indictment filed Ju

25 2019

pleaded guilty to count(s) before a U.S. Magistrate
Judge, which was accepted by the court.
pleaded nolo contendere to count(s) which was
accepted by the court
was found guilty on count(s) after a plea ofnot guilty

The defendant is adjudicated guilty ofthese oflenses:

Title & Section / Nature of Offense

Offense Ended

18 tJ.S.C. $ 2251(a) Production Of Child Pomography

05t26/2019

Count

The defendant is sentenced as provided in pages 2 through 8 ofthis judgment. The sentence is imposed pusuant to the Sentencing

Reform Act of 1984.

E
X

The defendant has been found not guilty on count(s)

Count(s) 2 is dismissed on the motion ofthe United States

It is ordered that the defendant must notiry the United States attomey for this district within 30 days ofany change ofname,
residence, or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If
ordered to pay restitution, the defendant must notiry the coufi and United States atlorney of material changes in economic
circumstances.

December 20 2019
Date of Imposilion ofJudgment

Sign

Ja

Judge

Wesley Hendrix
ted States District Judge
and I itle ofJudge

December 20 2019
Dalc

Case 5:19-cr-00089-H-BQ Document 47 Filed 12/20/19

AO 2458 (Rev. 'l'XN 9/19) Judgmenr in

DEFENDANT:

a

Page 2 of 8 PageID 128

Criminal Case

Judgment-Page2of8

ANDREW REY YBABEN
5: 1 9-CR-00089-H-BQ( l)

CASE NTJMBER:

IMPRISONMENT
The defendant is hereby committed to the custody ofthe United States Bureau ofPrisons to be imprisoned for a total
term of:
300 months as to count

X

1

The court makes the following recommendations to the Bureau ofPrisons: Incarceration at FCI Seagoville, Texas.

The Court recommends that, while incarcerated, the defendant receive appropriate substance-abuse and mental-health heatment, but
the Court did not lengthen the defendant's prison term to promote rehabilitation. See Tapiav. United States,564 U.S. 319 (201l
).

X
tr

The defendant is remanded to the custody ofthe United States Marshal.
The defendant shall surrender to the United States Marshal for this district

tr at
tr
!

as

n a.m. n p.-.

on

notified by the United States Marshal.

The defendant shall surrender for service of sentence at the institution designated by the Bureau ofPrisons:

tr
tr
tr

before 2 p.m. on
as

notified by the United States Marshal.

as

notified by the Probation or Pretrial Services Office.

RETURN
I have executed this judgment as follows

Defendant delivered on

at

to

with

a

certified copy ofthisjudgment.

IJNI.I'ED SI'AI ES MAIISLIAI-

Bv
DEPUTY UNITED STATES MARSHAL

Case 5:19-cr-00089-H-BQ Document 47 Filed 12/20/19

Page 3 of 8 PageID 129

AO 2458 (Rev. TXN 9/19) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER

Judgment-Page3of8

ANDREW REY YBABEN
5: 1 9-CR-00089-H-BQ( I )

SUPERVISED RELEASE
Upon release fiom impdsonment, the defendant shall be on supervised release for a term of

: thirty

(30) years.

MANDATORY CONDITIONS

l.
2.
3.

You must not commit another federal. state or local crime.
You must not unlawfully possess a controlled substance.
You must refrain from any unlawful use ofa controlled substance. You must submit to one drug test within 15 days ofrelease
lrom imprisonment and at least two periodic drug tests thereafter, as determined by the court.

E

The above drug testing condition is suspended, based on the court's determination that you pose a low risk of future
substance abuse. (check if applicable)

4. E

You must make restitution in accordance with l8 U.S.C. $S 3663 and 36634 or any other statute authorizing a sentence
of restitution. (check iJ qpplicable)

5. X
6. X

You must cooperate in the collection ofDNA as directed by the probation offtcer. (check if applicable)

7

. a

You must comply with the requirements ofthe Sex Offender Registation and Notification Act (34 U.S.C. $ 20901, et
seq.) as directed by the probation oflicer, the Bureau ofPrisons, or any state sex offender registration agency in which
you reside, work, are a student, or were convicted ofa qualiffing offense. (check ifapplicable)
You must participate in an approved progmm for domestic violence. (check if applicable)

You must comply with the standard conditions that have been adopted by this court as well as with any additional
conditions on the attached page.

Case 5:19-cr-00089-H-BQ Document 47 Filed 12/20/19
AO 2458 (Rcv. 'l XN 9/19) Judgnent in

DEFENDANT:
CASE NI]MBER:

a

Page 4 of 8 PageID 130

Criminal Casc

Judgment-Page4of8

ANDREW REY YBABEN
5: I 9-CR-00089-H-BQ( I )

STANDARD CONDITIONS OF SUPERVISION
As part ofyour supervised release, you must comply with the following standard conditions of supervision. These conditions are
imposed because they establish the basic expectations for your behavior while on supervision and identifo the minimum tools needed
by probation officers to keep informed, report to the court about, and bring about improvements in your conduct and condition.

l. You must report to the probation office in the federaljudicial district where you are authorized to reside within 72 hours of your
release from imprisonment, unless the probation officer instructs you to report to a different probation office or within a different time
frame.
2. After initially reporting to the probation oIIice, you will receiye instructions from the court or the probation officer about how and
when you must report to the probation officer, and you must report to the probation ofllcer as instructed.
3. You must not knowingly leaye the federaljudicial district where you are authorized to reside without first getting permission from
the court or the probation oflcer.
4. You must answer truthfully the questions asked by your probation officer.
5. You must live at a place approved by the probation oflicer. Ifyou plan to change where you Iive or any4hing about your living
arrangements (such as the people you live with), you must notiS/ the probation officer at least l0 days before the change. Ifnoti$,ing
the probation officer in advance is not possible due to unanticipated circumstances, you must notili, the probation ofiicer within 72
hours ofbecoming aware ofa change or expected change.
6. You must allow the probation officer to visit you at any time at your home or elsewhere, and you must permit the probation officer
to take any items prohibited by the conditions ofyour supervision that he or she observes in plain view.
7. You must work full time (at least 30 hours per week) at a lawful rype ofemployment, unless the probation oflicer excuses you liom
doing so. If you do not have full-time employment you must try to find full-time employment, unless the probation officer excuses
you fiom doing so. Ifyou plan to change where you work or anlthing about your work (such as your position or yourjob
responsibilities), you must notiry the probation officer at least l0 days before the change. If notirying the probation ofncer at least l0
days in advance is not possible due to unanticipated circumstances, you must notiry the probation officer vvithil 72 hours of
becoming aware ofa change or expected change.
8. You must not communicate or interact with someone you know is engaged in criminal activity. Ifyou know someone has been
convicted ofa felony. you must not knowingly communicate or interact with that person without first gefting the permission ofthe

probation oflcer.
9. [fyou are arrested or questioned by a law enforcement ofllcer, you must notiry the probation officer within 72 hours.
10. You must not own, possess, or have access to a firearm, ammunition, destructive device, or dangerous weapon (i.e., an)'thing that
was designed, or was modified for, the specific purpose ofcausing bodily injury or death to another person such as nunchakus or
tasers).
I L You must not act or make any agreement with a law enforcement agency to act as a confidential human source or informant

without first getting the permission ofthe court.
12. Ifthe probation officer determines that you pose a risk to another person (including an organization), the probation ollicer may
require you to notiry the person about the risk and you must comply with that instruction. The probation officer may contact the
person and confirm that you have notified the person about the risk.
13. You must follow the instructions ofthe probation officer related to the conditions ofsupervision.

U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the conditions specified by the court and has provided me with

a

w tten copy of this judgment containing these conditions. I understand additional information regarding these
conditions is available at www.txn .usco
Defendant's Signature

Date

Case 5:19-cr-00089-H-BQ Document 47 Filed 12/20/19
AO 2458 (Rev. TXN 9/19) Judgment in

DF,FI]N DANT:

CASE NUMBER

a

Page 5 of 8 PageID 131

Criminal Case

Judgment -- Page 5

of8

ANDREW REY YBABEN
5: I 9-CR-00089-H-BQ( I )

SPECIAL CONDITIONS OF SUPERVISION
The defendant shall have no contact with the victim(s) or the victim's family, directly or indirectly
without prior approval by the probation officer.
')

The defendant shall have no unsupervised contact with persons under the age of 18, nor shall the
defendant loiter near places where children may frequently congregate. The defendant shall neither seek
nor maintain employment or volunteer work at any location and/or activity where persons under the age
ol 18 congregate and the defendant shall not date or befriend anyone who has children under the age of
18, without prior permission olthe probation officer.

-)

The defendant shall not possess, have access to. or utilize a computer or Intemet connection device,
including, but not limited to Xbox, PlayStation, Nintendo, or similar device, without permission of the
probation officer. This condition requires preapproval for categories ofcomputer or lntemet access or
use; it does not require separate pre-use approval every time the defendant accesses or uses a computer
of the Intemet.

4.

The defendant shall not utilize or possess a carnera, recording device, camcorder, or other similar device
during the term ofsupervised release, without prior approval by the probation officer.

5.

The defendant shall pay any remaining balance of the assessment pursuant to l8 U.S.C. g 3014 in the
amount of $5,000.00, as set out in this Judgment.

6.

The defendant shall neither possess nor have under his control any sexually oriented, or sexually
stimulating materials ofadults or children. The defendant shall not patronize any place where such
material is available.

7

The defendant shall participate in sex offender treatment services as directed by the probation officer
until successfully discharged. These services may include psycho-physiological testing (i.e., clinical
polygraph, plethysmograph, and the ABEL screen) to monitor the defendant's compliance, treatment
progress, and risk to the community. The defendant shall contribute to the costs ofservices rendered at
a rate of at least $40.00 per month.

8.

The defendant shall participate in mental health treatment services as directed by the probation officer
until successfully discharged. These services may include medications prescribed by a licensed
physician. The defendant shall contribute to the costs ofservices rendered (copayment) at a rate ofat
least $40.00 per month.

9

The defendant shall participate in a program (inpatient and/or outpatient) approved by the U.S.
Probation Office lbr treatment ofnarcotic, drug, or alcohol dependency, which will include testing for
the detection of substance use or abuse. The defendant shall contribute to the costs ofservices rendered
(copayment) at a rate ofat least $40.00 per month.

l0

The defendant shall abstain from the use ofalcohol and all other inloxicants during the term
supervision.

of

Case 5:19-cr-00089-H-BQ Document 47 Filed 12/20/19
AO 2458 (Rev. TXN 9/19) Judgmcnt in

DEFENDANT:
NUMBER:

CASE

a

Page 6 of 8 PageID 132

Criminal Case

Judgment -- Page 6

of8

ANDREWREYYBABEN
5:

l9-CR-00089-H-BQ(

I

)

CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the schedule ofpayments page.
Assessment

Restitution

Fine

AVAA Assessment*

JVTA Assessment**

t00.00

$.00

s.00

s.00

s5,000.00

TOTALS

tr
tr

s

The determination ofr€stitution is deferred

until

An Amended.ludgment in q Criminal Case (AO215C) willbe entercd

after such determination.
The defendant must make restitution (including community restitution) to the following payees in the amount listed below.
makes a partial payment. each paycc shall receive an approximatcly proportioned payment. However. pursuant
t.l.S.C. $ 3664(i). all nonfederal victims must bc paid before the llnited Stales is paid.

If the defendant

tr
tr
n

Restitution amount ordered pursuant to plea agreement

to

18

S

The defendanl must pay interesl on restitution and a fine of more than $2,500, unless the restitution or fine is paid in full before
the fifteenth day after the date ofthejudgment, pursuant to 18 U.S.C. $ 3612(0. All ofthe payment options on the schedule of
payments page may be subject to penalties for delinquency and default, pursuant to l8 U.S.C. $ 3612(g).
The court determined that the defendant does not have the ability to pay interest and it is ordered that:

E
E

the interest requirement is waived for
the interest requirement for

the

the

E fine
U fine

tr
tr

restitution
restitution is modified as follows:

* n my. Vicky. and Andy Child Pomography Victim Assistance Act of 2018, Pub. t,. No. I l5-299.
t* Justice for Victims ofTrafficking Act of20l5, Pub. 1,. No. I l4-22
,** Irindings for the total amount of losses are required under Chaptcrs 109,4, I 10, I l0A. and I l3A ofTitle l8 for offenses
Septembcr 13. 1994, but beforc April 23. 1996.

committed on or after

Case 5:19-cr-00089-H-BQ Document 47 Filed 12/20/19

Page 7 of 8 PageID 133

AO 2458 (Rev. TXN 9/19) Judement in a Criminal Case

DEFENDANT:

Judgment -- Page 7

of8

ANDREW REY YBABEN
5: l9-CR-00089-H-BQ( I )

CASE NUMBER:

SCHEDULE OF PAYMENTS
Having assessed the defendant's ability to pay, payment ofthe total criminal monetary penalties is due as follows

A tr

Lump sum payments

E

not later

E

in

B E
C E

of$

due immediately, balance due

than

, or

accordance tr C,

tr D,

Payment to begin immediately (may be combined

with tr

E

E,

or

C,

tr

F below; or

tr

D,

(e.g., weekly, monthly, quarterl,) installments

Payment in equal

(e.9., months or yedrs), to commence

D

tr

_

Payment in equal 20 (e.g., weekly, monthly, quarterly) installments
(e.9., months or years), to commence

_

or

of$

tr

F below); or

over a period

of

(e.g., 30 or 60 days) after the date of this judgment; or

of$

over a period

of

(e.g., 30 or 60 days) after release from imprisonment

to a term ofsupervision; or

E E

(e.9., 30 or 60 days) after release
Payment during the term ofsupervised release will commence within
Ilom imprisonment. The coun will set the payment plan based on an assessment ofthe defendant's ability to pay at that

time; or
F

X

Special instruclions regarding the payment ofcriminal monetary penalties:

It is ordered that the Defendant shall pay to the United States a special assessment ofSl00.00 for Count l, which
shall be due immediately. Said special assessment shall be paid to the Clerlq U.S. District Court.
Unless the court has expressly ordered otherwise, ifthisjudgment imposes imprisonment, payment of criminal monetary penalties is
due during imprisonment. All criminai monetary penalties, except those payments made through lhe Federal Bureau of Prisons'
lnmate Financial Responsibility Progam, are made to the clerk ofthe court.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed

E

Joint and Several

for Defendant and Co-Defendant Names and Case Numbers lincfudr'rg defendant number),Total Amount, Joint and
Several Amount, and conesponding payee, ifappropriate.
See above

tr
!
tr

The defendant shall pay the cost ofprosecution.
The defendant shall pay the following court cost(s):
The defendant shall forfeit the defendant's interest in the following property to the United States:

Payments shall be applied in the following order: (l) assessment, (2) restitution principal, (3) restitution interest, (4) AVAA
assessment, (5) fine principal, (6) fine interest, (7) community restitution, (8) JVTA assessment, (9) penalties, and ( l0) costs,

including cost ofprosecution and court costs.

Case 5:19-cr-00089-H-BQ Document 47 Filed 12/20/19
AO 2458 (Rev. TXN 9/19) Judgment in

DEFENDANT:
NUMBER:

CASE

a

Page 8 of 8 PageID 134

Criminal Case

Judgmcnt-Page8of8

ANDREWREYYBABEN
5:

l9-CR-00089-H-BQ(

I)

ADDITIONAL FORFEITED PROPERTY
The defendant shall forfeit to the United Slates of America (1) black Microsoft Lumia 640 (RM-1073)
cellular phone, bearing IMEI 35781 60606945 I 8, which was seized by law enforcement on or about June
8, 201 9, and searched pursuant to a state search warrant; (2) 2GB Micro SD card located in the Microsoft
Lumia 640 (RM 1073), bearing IMEI 3578160606945 18, which was seized by law enforcement on or
about June 8, 2019, and searched pursuant to a state search warrant.

